A-1
APPENDIX A
IN THE COURT OF APPEALS
OF THE STATE OF WASHINGTON
DIVISION THREE
GLOBAL NEIGHBORHOOD; ) No. 35528-4-III
REFUGEE CONNECTIONS OF )
SPOKANE; SPOKANE CHINESE )
PUBLISHED
ASSOCIATION; ASIAN PACIFIC )
OPINION
ISLANDER COALITION –
)
SPOKANE; SPOKANE
)
CHINESE AMERICAN
) (Filed Jan. 29, 2019)
PROGRESSIVES; and the
)
SPOKANE AREA CHAPTER )
OF THE NATIONAL
)
ORGANIZATION OF WOMEN, )
)
Respondents,
)
v.
)
RESPECT WASHINGTON,
)
)
Appellant,
VICKY DALTON, SPOKANE )
)
COUNTY AUDITOR, in
)
her official capacity; and
)
the CITY OF SPOKANE,
)
Respondents.
FEARING, J. – In this well briefed and astutely argued appeal by both sides, we face the intimidating
and humbling task of classifying, as either administrative or legislative, a city initiative that authorizes
without restriction city employees to question individuals as to immigration status. This classification determines the eligibility of the initiative for vote by the

A-2
people of Spokane. The appeal raises other issues, including the mootness of the suit after the city council
amended a city ordinance referenced in the initiative,
the standing of challengers to obtain an injunction removing the initiative from the ballot, the imposition of
a statute of limitations to a suit challenging a proposed
initiative, the application of laches to preclude a suit
challenging an initiative, the legality of the initiative
in light of state and federal law, and the implication
of the initiative backers’ First Amendment rights.
Because the proposed initiative arises from an administrative framework, because the initiative entails
directions to city employees, because the initiative
meddles in the administration of the city’s police force
and may interfere in effective law enforcement, and because the initiative runs contrary to state, if not, federal law, we declare the initiative administrative in
nature. We affirm the trial court’s grant of an order enjoining placement of the initiative on the ballot.
FACTS
This appeal concerns the validity of “Proposition
1,” a proposed City of Spokane initiative originally
scheduled for placement on the November 2017 ballot.
The gist of the initiative would allow Spokane city employees, including law enforcement officers, to question
without any restriction individuals about their immigration status and citizenship status, permit employees to assemble information on residents’ immigration
status, and share the information with others. The
background to the lawsuit precedes the filing of the

A-3
initiative and begins with state law and continues with
Spokane Police Department internal policy and Spokane ordinances adopted by the Spokane City Council.
We review, but heavily redact for purposes of shortening an already lengthy opinion, state law, police department policy, and city ordinances before identifying
the history and content of Proposition 1.
We begin with some background to the challengers
of Proposition 1, which challengers initiated this declaratory suit to declare Proposition 1 invalid. Plaintiff
Global Neighborhood, a nonprofit organization, operates under the mission statement to “ ‘provide former
refugees with opportunities for holistic development.’ ”
Clerk’s Papers (CP) at 7. Global Neighborhood serves
former refugees living in the city of Spokane by engaging in activities aimed at improving quality of life, such
as providing employment at a thrift shop it owns and
operates.
Plaintiff Refugee Connections of Spokane, also a
nonprofit organization, develops projects, programs,
and resources that benefit refugees and immigrants
and their communities in Spokane. In support of the
suit, Amina Abdul-Fields, Chair of the Board of Directors of Refugee Connections, submitted a declaration.
Abdul-Fields averred that Refugee Connections’ many
services to refugees and immigrants include the Harvest Project, Patient Passports, and Interpreter Training. The organization promotes civic engagement
through police potlucks, law and justice workshops,
and the World Refugee Day Celebration. Refugee Connections understands that many immigrants arrive

A-4
from nations wherein authority symbolizes a threat.
The law and justice workshop seeks to foster a positive
view of the United States legal system, explain how the
American criminal justice system functions, identify
key civil liberties, and provide written information on
where to seek assistance in protecting those rights.
Amina Abdul-Fields declared that members of
the immigrant and refugee community served by Refugee Connections will become targeted and injured by
changes to law enforcement profiling resulting from
the passage of Proposition 1. The immigrant community will be subjected to additional stops by Spokane
police officers solely on the basis of the person’s appearance, accent, or mannerisms. Increased contact with
law enforcement based solely on immigration status
will increase fear and reluctance on the part of refugees to contact police or seek protections from the legal
system. Abdul-Fields concluded that adoption of Proposition 1 will challenge Refugee Connections’ ability to
serve the immigrant and refugee community.
Spokane Chinese Association, a nonprofit association, was formed by people of Chinese cultural heritage
residing in the Spokane area. The organization strives
to advance communication and friendship among its
members and to enrich their lives and local culture
by organizing activities related to Chinese culture or
common interests. The plaintiff Asian Pacific Islander
Coalition – Spokane promotes equitable access to culturally competent and linguistically accessible health
and human services, economic development for small
businesses, civil and human rights, and equal access to

A-5
education for Asian Pacific Americans, including immigrants, refugees, and citizens.
Each plaintiff organization contends it serves
members of the community that will be adversely targeted by changes to law enforcement profiling resulting from the passage of Proposition 1. We refer to the
plaintiffs collectively as “Global Neighborhood.”
The parties agree that this appeal poses no direct
question as to whether city employees’ seeking and
sharing of the immigration status of individual constitutes racial profiling. Nevertheless, this appeal in part
embodies the relationship between racial profiling
and enforcing immigration law. Global Neighborhood
claims that Proposition 1 promotes racial profiling.
RCW 43.101.410, enacted in 2002, directs local law
enforcement agencies to address racial profiling. The
statute declares, in part:
(1) Local law enforcement agencies shall
comply with the recommendations of the Washington association of sheriffs and police chiefs
regarding racial profiling, as set forth under
(a) through (f ) of this subsection. Local law
enforcement agencies shall:
(a) Adopt a written policy designed to
condemn and prevent racial profiling;
(b) Review and audit their existing procedures, practices, and training to ensure that
they do not enable or foster the practice of racial profiling;

A-6
(c) Continue training to address the issues related to racial profiling. Officers should
be trained in how to better interact with persons they stop so that legitimate police actions
are not misperceived as racial profiling;
(d) Ensure that they have in place a citizen complaint review process that can adequately address instances of racial profiling.
The process must be accessible to citizens and
must be fair. Officers found to be engaged
in racial profiling must be held accountable
through the appropriate disciplinary procedures within each department;
(e) Work with the minority groups in
their community to appropriately address the
issue of racial profiling; and
(f ) Within fiscal constraints, collect demographic data on traffic stops and analyze
that data to ensure that racial profiling is not
occurring.
In explaining the 2002 law, the legislature declared:
[R]acial profiling is the illegal use of race
or ethnicity as a factor in deciding to stop and
question, take enforcement action, arrest, or
search a person or vehicle with or without a
legal basis under the United States Constitution or Washington [S]tate Constitution.
LAWS OF 2002 ch. 14, § 1(1) (emphasis added).
The legislature recognizes that the president of the United States has issued an

A-7
executive order stating that stopping or
searching individuals on the basis of race is
not an effective law enforcement policy, that it
is inconsistent with democratic ideals, especially the commitment to equal protection under the law for all persons, and that it is
neither legitimate nor defensible as a strategy
for public protection.
LAWS OF 2002 ch. 14, § 1(2).
We move to policies and ordinances of the city of
Spokane, Washington State’s second city with a 2017
estimated population of 217,300. The Spokane City
Council delegated the authority to adopt police department policy to the city police department and its chief.
Spokane Municipal Code (SMC) 3.10.010(B)(1) provides:
The chief of police administers the Spokane police department and the police reserve
force and has the authority to make rules and
issue orders for the proper functioning of the
division, consistent with law, council policy,
and the rules of civil service commission.
Presumably to comply with RCW 43.101.410, the
Spokane Police Department adopted policies 402 and
428. Policy 402 reads, in part:
Bias-Based Policing
402.1 PURPOSE AND SCOPE
This policy provides guidance to department members and establishes appropriate
controls to ensure that employees of the

A-8
Spokane Police Department do not engage in
racial-or bias-based profiling or violate any related laws while serving the community.
402.1.1 DEFINITION
Definitions related to this policy include:
Racial-or bias-based profiling - An inappropriate reliance on factors such as race,
ethnicity, national origin, religion, sex, sexual
orientation, economic status, age, cultural
group, disability or affiliation with any other
similar identifiable group as a factor in deciding whether to take law enforcement action or
to provide service.
402.2 POLICY
The Spokane Police Department is committed to providing law enforcement services
to the community with due regard for the racial, cultural or other differences of those
served. It is the policy of this department to
provide law enforcement services and to enforce the law equally, fairly and without discrimination toward any individual or group.
Race, ethnicity or nationality, religion,
sex, sexual orientation, economic status, age,
cultural group, disability or affiliation with
any other similar identifiable group shall not
be used as the basis for providing differing
levels of law enforcement service or the enforcement of the law.
402.3 RACIAL-OR BIAS-BASED PROFILING PROHIBITED
Racial-or bias-based profiling is strictly
prohibited. However, nothing in this policy is

A-9
intended to prohibit an officer from considering factors such as race or ethnicity in
combination with other legitimate factors to
establish reasonable suspicion or probable
cause (e.g., suspect description is limited to a
specific race or group).
SPOKANE POLICE DEPARTMENT, POLICY MANUAL §§ 402.1402.3 at 238 (adopted Feb. 9, 2016). https://static.spokane
city.org/documents/police/accountability/police-policy-manual2016-02-09.pdf. (Emphasis added).
Spokane Police Department Policy 428 declares in
part:
Immigration Violations
428.1 PURPOSE AND SCOPE
The immigration status of individuals
alone is generally not a matter for police action. It is incumbent upon all employees of
this department to make a personal commitment to equal enforcement of the law and
equal service to the public regardless of immigration status. Confidence in this commitment will increase the effectiveness of the
Department in protecting and serving the entire community.
428.2 DEPARTMENT POLICY
The U.S. Immigration and Customs Enforcement (ICE) has primary jurisdiction for
enforcement of the provisions of Title 8,
United States Code (U.S.C.) dealing with illegal entry. When assisting ICE at its specific
request, or when suspected criminal violations are discovered as a result of inquiry or

A-10
investigation based on probable cause originating from activities other than the isolated
violations of Title 8, U.S.C., §§ 1304, 1324,
1325 and 1326, this department may assist in
the enforcement of federal immigration laws.
....
428.3.1 BASIS FOR CONTACT
Unless immigration status is relevant to
another criminal offense or investigation (e.g.,
harboring, smuggling, terrorism), the fact that
an individual is suspected of being an undocumented alien shall not be the sole basis for
contact, detention or arrest.
....
428.3.3 ICE REQUEST FOR ASSISTANCE
If a specific request is made by ICE or any
other federal agency, this department will provide available support services, such as traffic
control or peacekeeping efforts, during the
federal operation.
Members of this department should not
participate in such federal operations as part
of any detention team unless it is in direct response to a request for assistance on a temporary basis or for officer safety. Any detention
by a member of this department should be
based upon the reasonable belief that an individual is involved in criminal activity.
....
428.3.7 NOTIFICATION OF IMMIGRATION AND CUSTOMS ENFORCEMENT
If an officer believes that an individual
taken into custody for a felony is also an

A-11
undocumented alien, and after he/she is formally charged and there is no intention to
transport to the county jail, ICE shall be informed by the arresting officer so that they
may consider placing immigration hold on the
individual.
Whenever an officer has reason to believe
that any person arrested for an offense other
than a felony may not be a citizen of the
United States, and the individual is not going
to be booked into the county jail, the arresting
officer may cause ICE to be notified for consideration of an immigration hold. In making the
determination whether to notify ICE in such
circumstances, the officer should, in consultation with a supervisor, consider the totality of
circumstances of each case, including, but not
limited to:
(a)

Seriousness of the offense.

(b)

Community safety.

(c)

Potential burden on ICE.

(d)

Impact on the immigrant community.

Generally, officers will not need to notify
ICE when booking arrestees at the county jail.
Immigration officials routinely interview suspected undocumented aliens who are booked
into the county jail on criminal charges and
notification will be handled according to jail
operation procedures.

A-12
428.4 CONSIDERATIONS PRIOR TO
REPORTING TO ICE
....
All individuals, regardless of their immigration status, must feel secure that contacting law enforcement will not make them
vulnerable to deportation. Members should
not attempt to determine the immigration
status of crime victims and witnesses or take
enforcement action against them absent exigent circumstances or reasonable cause to believe that a crime victim or witness is involved
in violating criminal laws. Generally, if an officer suspects that a victim or witness is an
undocumented immigrant, the officer need
not report the person to ICE unless circumstances indicate such reporting is reasonably
necessary.
SPOKANE POLICE DEP’T, POLICY MANUAL §§ 428.1-428.4,
at 282-85
In October 2014, years after the Spokane Police
Department adopted Policies 402 and 428, the Spokane City Council enacted two ordinances. The ordinances codified the department policies respectively
into former SMC §§ 3.10.040, .050 (2014). Until 2017
amendments, the two code sections read:
3.10.040 Biased Free Policing
....
B. Spokane Police Department Officers
and all officers commissioned under the Spokane Police Department shall be prohibited
from engaging in bias-based profiling.

A-13
C. Bias-based profiling is defined as an
“act of a member of the Spokane Police Department or a law enforcement officer commissioned by the Spokane Police Department
that relies on actual or perceived race, national
origin, color, creed, age, citizenship status
. . . or any characteristic of protected classes
under federal, state or local laws as the determinative factor initiating law enforcement
action against an individual, rather than an
individual’s behavior or other information or
circumstances that links a person or persons
to suspected unlawful activity.”
3.10.050 Immigration Status Information
A. Unless required by law or court order, no Spokane City officer or employee shall
inquire into the immigration status of any
person, or engage in activities designed to ascertain the immigration status of any person.
B. Spokane Police Department officers
shall have reasonable suspicion to believe a
person has been previously deported from the
United States, is again present in the United
States, and is committ[ing] or has committed
a felony criminal-law violation before inquiring into the immigration status of an individual.
C. The Spokane Police Department shall
not investigate, arrest, or detain an individual
based solely on immigration status.
(Emphasis added.)

A-14
On November 26, 2014, one month after the Spokane City Council adopted former SMC 3.10.040 and
.050, Jackie Murray, on behalf of Respect Washington,
submitted a petition for a proposed initiative with the
Spokane city clerk. The proposed initiative would
amend former SMC 3.10.040 to eliminate citizenship
status from the list of prohibited factors for city police
to consider during investigations, would repeal former
SMC 3.10.050, and would add a new code section that
would prohibit the city from limiting any city employee
from collecting immigration status information and
sharing the information with federal authorities. SMC
3.10.060 would read:
Respect for Law: The City of Spokane
shall not limit the ability of any city employee
from collecting immigration status information, communicating immigration status information and cooperating with federal law
enforcement authorities unless such regulation is approved by a majority vote of the City
Council and a majority vote of the people at
an election.
CP at 172.
On December 8, 2015, Jackie Murray sent two separate e-mails that declared she formally withdrew her
sponsorship of the initiative petition. The Spokane
County auditor continued with the initiative process
anyway and certified that Murray submitted the requisite number of signatures for a vote. On February 22,
2016, the Spokane City Council placed the initiative
on the November 7, 2017 ballot as Proposition 1. The

A-15
Spokesman Review and the Spokane Journal of Business thereafter penned editorials lamenting the filing
of an anti-immigrant initiative.
On March 27, 2017, after placement of Proposition
1 on the November 2017 ballot, the Spokane City
Council passed Spokane Ordinance C35485, which repealed former SMC 3.10.040 and .050, the two code
sections that Proposition 1 sought to amend or repeal.
The city council adopted the ordinance ostensibly because it wished to consolidate various sections and
chapters of the city code into a new Title 18 that addressed human rights. Before the creation of Title 18,
the municipal code scattered human rights provisions
throughout various code sections. Spokane Ordinance
C35485 recodified similar, but not identical, language
from the repealed sections into the new Title 18. The
ordinance reads in part:
ORDINANCE No. C35485
An ordinance relating to human rights
protections; repealing chapters 01.06, 01.08,
10.08E, and 10.18; sections 03.10.040, 03.10.050,
and 03.10.060; enacting a new Title 18; and
amending sections 01.05.210, 04.10.040 and
04.10.050 of the Spokane Municipal Code.
WHEREAS, human rights provisions are
scattered throughout the Spokane Municipal
Code; and
WHEREAS, protections for human rights
are fundamental to the welfare of all people in
Spokane; and

A-16
WHEREAS, the City Council recognizes
the utility of grouping all provisions which
contain and describe the human rights protections of the Spokane Municipal Code in the
same title; and
WHEREAS, the City of Spokane reaffirms its commitment to the protection of the
human rights of all those living in Spokane.
NOW THEREFORE, the City of Spokane does ordain:
Section 1. That chapters 01.06, 01.08,
10.08E, and 10.18, and sections 03.10.040,
03.10.050, and 03.10.060 of the Spokane Municipal Code are hereby repealed.
Section 2. That there is enacted a new
Title 18 of the Spokane Municipal Code to
read as follows:
Title 18 Human Rights
Chapter 18.01 Law Against Discrimination
Section 18.01.010 Findings
The City of Spokane finds that discrimination based on race, religion, creed, color, sex,
national origin, marital status, familial status, domestic violence victim status, age, sexual orientation, gender identity, honorably
discharged veteran or military status, refugee
status, the presence of any sensory, mental or
physical disability as defined by the Americans with Disability Act, 42 U.S.C., § 12101
et seq., and/or the Washington State Law
Against Disability, Chapter 49.60 RCW, or the

A-17
receipt of, or eligibility for the receipt of, funds
from any housing choice or other subsidy program or alternative source of income poses a
substantial threat to the health, safety and
general welfare of the citizens of Spokane. The
City deems it necessary and proper to enact a
local ordinance to address these issues.
....
Section 18.01.030 Definitions
....
D. “Discrimination” means different or
unequal treatment because of race, religion,
creed, color, sex, national origin, marital status, familial status, domestic violence victim
status, age, sexual orientation, gender identity, honorably discharged veteran or military
status, refugee status, disability, the use of a
guide dog or service animal, or the use or eligibility for the use of housing choice or other
subsidy program or alternative source of income. “Discriminate” means to treat differently or unequally because of race, religion,
creed, color, sex, national origin, marital status, familial status, domestic violence victim
status, age, sexual orientation, gender identity, honorably discharged veteran or military
status, refugee status, the presence of any sensory, mental or physical disability as defined
by the American with Disability Act and/or
the Washington State Law Against Discrimination, [chapter 49.60 RCW], or the use or eligibility for the use of housing choice or other
subsidy program or alternative source of income.

A-18
....
U. “Profiling” means actions of the Spokane Police Department, its members, or officers commissioned by the Spokane Police
Department to rely on actual or perceived
race, religion, national origin, color, creed, age,
citizenship status, immigration status, refugee
status, gender, sexual orientation, gender identity, disability, socio-economic status, housing
status, or membership in any protected class
under federal, state or local law as the determinative factor in initiating law enforcement
action against an individual, rather than an
individual’s behavior or other information or
circumstances that links a person or persons
to suspected unlawful activity.
V. “Refugee status” means the status of
a person who, under the provisions of 8 USC
1101(a)(42), is outside a country of that person’s nationality or, in the case of a person
having no nationality, is outside any country
in which that person last habitually resided,
and who is unable or unwilling to return to,
and is unable or unwilling to avail himself or
herself of the protection of, that country because of persecution or a well-founded fear of
persecution on account of race, religion, nationality, membership in a particular social
group, or political opinion.
....
Chapter 18.07 Police Practices
Section 18.07.010 Bias-Free Policing
A. The City of Spokane is committed
to providing services and enforcing laws in a

A-19
professional, nondiscriminatory, fair and equitable manner.
B. The Spokane Police Department, its
officers, employees, and all officers commissioned under the Spokane Police Department
are prohibited from engaging in profiling as
the term is defined in this SMC 18.01.030[U].
C. The Spokane Police Department shall
maintain policies consistent with this section.
Section 18.07.020 Immigration Status
Information
A. Unless required by law or court order,
no officer, agent, or employee of the City of Spokane shall inquire into the immigration or citizenship status of any person, or engage in
activities designed to ascertain the immigration status of any person.
B. Spokane Police officers may not inquire
into the immigration or citizenship status of
an individual unless they have reasonable
suspicion to believe a person: (i) has been previously deported from the United States, (ii) is
again present in the United States, and (iii) is
committing or has committed a felony criminal law violation.
C. The Spokane Police Department shall
not investigate, arrest, or detain an individual
based solely on immigration or citizenship status.

A-20
D. The Spokane Police Department shall
maintain policies consistent with this section.
Spokane Ordinance C35485 (Mar. 27, 2017) (emphasis
added).
PROCEDURE
In May 2017, Asian Pacific Islander CoalitionSpokane, Global Neighborhood, Refugee Connections
of Spokane, Spokane Area Chapter of the National
Organization of Women, Spokane Chinese American
Progressives, and Spokane Chinese Association filed
this lawsuit to address the validity of Proposition 1.
Defendants include Spokane County Auditor Vicky
Dalton, the City of Spokane, and Respect Washington.
The county auditor takes no position on the merits of
the suit. Respect Washington actively opposes the suit.
The City of Spokane takes no position on the merits of
the lawsuit, but asks that, if Proposition 1 is invalid,
we enjoin its placement on the ballot. In its answer to
the complaint, Spokane noted that it will pay for the
cost of the Proposition 1 election, and the city did not
wish to pay for an election for an invalid measure.
On July 28, 2017, Global Neighborhood moved
the trial court for a declaratory judgment prohibiting Proposition 1 from being placed on the November
2017 ballot. Global Neighborhood raised at least three
arguments in support of its motion for relief. Global
Neighborhood claimed that Proposition 1 was invalid
due to two procedural violations of the SMC. First,

A-21
Proposition 1 lacked a sponsor in contravention of the
Spokane Municipal Code, since Jackie Murray withdrew her sponsorship before the validation of signatures. Second, the petition for the initiative contained
inflammatory and prejudicial language contrary to
SMC 2.02.060(D)(5). In fact, the city clerk informed Respect Washington that language in the petition conflicted with the requirements of the municipal code,
and the clerk directed the group to remove the language. Respect Washington did not comply with the request. On the merits, Global Neighborhood argued that
the subject matter of Proposition 1 was administrative
in nature and thus not a proper subject for an initiative.
The trial court granted Global Neighborhood’s request for declaratory judgment. In doing so, the trial
court declared that a justiciable controversy existed,
that plaintiffs held organizational standing and standing through their respective members, and that laches
did not bar the suit. The superior court ruled Proposition 1 invalid because the measure seeks to repeal
portions of the Spokane Municipal Code previously rescinded. The superior court also declared Proposition 1
invalid because the measure is administrative in nature and thereby exceeds the local initiative power. The
trial court entered an injunction directing the removal
of Proposition 1 from the November 2017 ballot.

A-22
LAW AND ANALYSIS
The primary issue on appeal and on which our decision rests is whether Proposition 1 is administrative
or legislative in nature. Nevertheless, Respect Washington raises defenses and other hurdles to Global
Neighborhood obtaining relief, which defenses and arguments include laches, the statute of limitations, lack
of harm for purposes of an injunction, and violation of
Respect Washington’s and its members First Amendment rights by reason of the legal attack on Proposition 1. In turn, Global Neighborhood asks that this
court decline to address the merits of Respect Washington’s appeal because of the moot nature of the case.
Global Neighborhood does not seek to dismiss the appeal on the ground that the initiative’s sponsor withdrew her sponsorship before certification for the ballot.
Since we would not need to address the merits of the
appeal if some event rendered the appeal moot, we address mootness first. We also review, before entertaining the merits of the appeal, defenses asserted by
Respect Washington.
Mootness
After the certification of Proposition 1 for the November 2017 ballot, the Spokane City Council, through
Spokane Ordinance C35485, repealed former SMC
3.10.040 and .050, code sections that Proposition 1
sought to amend or repeal. Proposition 1 specifically
identified the two code sections as the initiative’s target. With Spokane Ordinance C35485, former SMC

A-23
3.10.040 and .050 no longer exist. According to Global
Neighborhood, the repeal of former SMC 3.10.040 and
.050 in Spokane Ordinance C35485 renders Proposition 1 moot, because revoking or amending nonexistent
code sections serves no purpose. Global Neighborhood
does not contend that the passing of the November
2017 election leaves the initiative moot.
Global Neighborhood’s contention ignores the existence of the substantive provisions, previously found
in former SMC 3.10.040 and .050, within Title 18 SMC.
One could read Proposition 1 as now targeting SMC
18.01.010 and .030(D), (U), and (V), SMC 18.01.040,
SMC 18.07.010 and .020, which sections continue to
define prohibited “profiling” as including acting on another’s perceived or actual citizenship status. The new
sections, like the former sections, also generally prohibit a law enforcement officer from asking a person
about his or her citizenship status. Global Neighborhood’s contention also ignores Proposition 1’s attempt
to add a new section, SMC 3.10.060, to the Spokane
code. The passing of Spokane Ordinance C35485 does
not render irrelevant the addition of this new section
to the code by an initiative.
As a general rule, this court will not review a moot
question. Citizens for Financially Responsible Government v. City of Spokane, 99 Wn.2d 339, 350, 662 P.2d
845 (1983). A case is moot when it involves only abstract propositions or questions, when substantial
questions in the trial court no longer exist, or when a
court can no longer provide effective relief. Spokane

A-24
Research & Defense Fund v. City of Spokane, 155
Wn.2d 89, 99, 117 P.3d 1117 (2005).
The Washington Supreme Court directs this court
to consider mootness because mootness challenges the
jurisdiction of the court. Citizens for Financially Responsible Government v. City of Spokane, 99 Wn.2d at
350. According to our high court, the reviewing court
should first address whether an issue is moot as opposed to immediately resolving the merits of an issue.
Rosling v. Seattle Building & Construction Trades
Council, 62 Wn.2d 905, 907-08, 385 P.2d 29 (1963).
The parties forward two conflicting Washington
Supreme Court decisions on the subject of mootness
within the setting of an initiative or referendum: Citizens for Financially Responsible Government v. City of
Spokane, 99 Wn.2d 339 (1983), and City of Yakima v.
Huza, 67 Wn.2d 351, 407 P.2d 815 (1965). We review
each decision to discern whether we should declare the
validity of some or portions of Proposition 1 moot because of Spokane Ordinance C35485.
In City of Yakima v. Huza, chapter 5.50 City of
Yakima Municipal Code imposed a tax on the gross receipts of electricity, telephone, water, sewer, and garbage utilities in the city of Yakima. In November and
December 1961, the city respectively enacted Ordinances 300 and 308. The ordinances increased the permanent tax rate for the telephone utility receipts,
enacted a temporary surtax for the calendar year 1962
on electricity and telephone utilities’ receipts, and enacted a tax on the gross receipts for the calendar year

A-25
1962 received by the natural gas company. In April
1962, Stephen Huza filed an initiative petition with
the city clerk. The proposed initiative would repeal the
increased tax rates on the gross receipts of the electricity and telephone utilities, repeal the tax on the gross
receipts of the natural gas company, allow tax credits
on future taxes equal to all increased taxes collected
under Ordinances 300 and 308 before their revocation,
and reduce taxes for water, sewer, and garbage services. The initiative proposed to accomplish its purposes by expressly repealing Ordinances 300 and 308.
On July 3, 1962, the city of Yakima commenced legal action to challenge Stephen Huza’s initiative petition on the ground that only the city council held
authority to amend tax measures. On October 29, 1962,
before any trial, the Yakima City Council passed Ordinance 390 that essentially adopted the same measures
as Ordinances 300 and 308, but for the calendar year
1963. Ordinance 390 never mentioned Ordinances 300
or 308. Ordinance 390 instead directly referenced
chapter 5.50, City of Yakima Municipal Code.
On appeal, the City of Yakima argued that newly
enacted Ordinance 390 rendered moot the right to vote
on Stephen Huza’s proposed initiative since Ordinance
390 repealed Ordinances 300 and 308, the two ordinances the initiative sought to repeal. The Supreme
Court agreed. The Court reasoned that the proposed
initiative would repeal the tax measures implanted in
Ordinances 300 and 308, but those same taxes would
continue based on Ordinance 390 despite the repeal of
the earlier ordinances. The proposed initiative could

A-26
have sought to directly repeal provisions of chapter
5.50 of the municipal code, but failed to expressly mention the code chapter. Although the initiative sought to
repeal the tax increases, the court deemed the initiative worthless because the initiative did not mention
the recently enacted ordinance number or the code sections that then referenced the taxes. In effect, a city
could renumber the ordinance or code section sought
to be repealed by an initiative in order to escape the
initiative.
Three dissenters, in City of Yakima v. Huza, characterized the City of Yakima’s action as legislative shenanigans, a frustration of the initiative process, and a
flagrant abuse of the judicial process. We agree with
the dissenters that a city should not be allowed to enact later ordinances that readopt the same substantive
measures but under different numbering or coding, in
order to obstruct a proposed initiative.
In Citizens for Financially Responsible Government v. City of Spokane, 99 Wn.2d 339 (1983), citizens
filed a referendum with the city of Spokane city clerk,
which referendum would repeal Ordinance C25792, an
ordinance imposing a business and occupation tax.
One month later, the Spokane City Council passed Ordinance C25832, which amended Ordinance C25792.
We do not know the nature of the amendments. The
clerk refused to accept the referendum based on the
city attorney’s advice that only the city council held
authority to adopt or repeal a tax measure and the
measure was administrative rather than legislative
in nature. The citizens sought a writ of mandamus to

A-27
compel the filing and processing of the referendum.
The superior court granted the writ.
On appeal to the Supreme Court, the City of Spokane, while relying on City of Yakima v. Huza, argued
that the proposed initiative became moot with the
adoption of Ordinance C25832, which amended Ordinance C25792, the subject of the initiative. The Citizens court distinguished Huza on the basis that the
later adopted Yakima ordinance was complete in itself and never referenced the two ordinances sought to
be repealed by the initiative. The later adopted Spokane ordinance merely amended the earlier ordinance
sought to be revoked. The later adopted Spokane ordinance did not stand alone.
Despite distinguishing Huza, the Citizens court
wrote that it agreed with the Huza dissenters that a
repealing or reenacting ordinance should not be allowed to frustrate the initiative process. Accordingly,
the Supreme Court will frown on the deliberate efforts
by a legislative body to circumvent the initiative rights
of the electorate. The Citizens court, however, declined
to reconsider Huza because of the differences in the
effect of the respective Yakima and Spokane later
adopted ordinances.
We do not know if the Spokane City Council deliberately adopted Spokane Ordinance C35485 for the
purpose of evading Proposition 1. But we need not rest
our decision on any deliberate evasion.
We doubt the validity of City of Yakima v. Huza
after Citizens for Financially Responsible Government

A-28
v. City of Spokane, but deem this appeal more aligned
with the facts of Citizens, not Huza. The Citizens court
wrote that Huza must be limited to its unique facts, a
comment that may politely overrule Huza. Like the
Yakima amending ordinance in Huza, Spokane’s Ordinance C35485 is complete in itself. Nevertheless, unlike the Yakima ordinance and similar to the Spokane
amending ordinance in Citizens, Ordinance C35485
refers to the previously enacted code sections, which
are the objects of Respect Washington’s initiative. Although Proposition 1 does not identify the current code
sections that prohibit profiling based on and questioning about one’s citizenship status, a court or a city
official could deem Proposition 1 to now target code
sections found in Title 18 SMC. Since a new ordinance
should not frustrate the initiative process, we hold that
the validity of Proposition 1 is not moot.
Spokane Ordinance C35485 added refugee and
immigration status to citizenship status as forbidden
subjects of questioning and profiling by law enforcement officers. These additions raise the problem of
whether Proposition 1, if passed, would allow questioning detainees about citizenship status, but not about
refugee or immigration status, despite the three statuses being interrelated. Because we rest our decision
on other grounds, we need not resolve this anomaly.
Despite the Supreme Court directing us to address
mootness first because mootness impacts the jurisdiction of the courts, mootness does not necessarily preclude court review. This court may review a moot issue
of continuing and substantial interest that presents a

A-29
question of a public nature likely to recur. Citizens
for Financially Responsible Government v. City of Spokane, 99 Wn.2d at 351. Washington courts have repeatedly entertained suits involving the right of initiative
or referendum despite possible mootness because the
suits entail substantial public interest. Philadelphia II
v. Gregoire, 128 Wn.2d 707, 712, 911 P.2d 389 (1996);
Citizens for Financially Responsible Government v.
City of Spokane, 99 Wn.2d at 351; Leonard v. City of
Bothell, 87 Wn.2d 847, 849, 557 P.2d 1306 (1976); Save
Our State Park v. Hordyk, 71 Wn. App. 84, 89, 856 P.2d
734 (1993). In Citizens for Financially Responsible
Government v. City of Spokane, the high court ended
its opinion by stating that, even if the appeal became
moot, it would still consider the validity of the initiative because the case presented an issue of continuing
and substantial interest to the public.
The principle that mootness impacts the court’s jurisdiction conflicts with the rule allowing this court to
hear moot appeals impacting a substantial public interest. If we have no jurisdiction, we have no authority
to hear and determine the case. Bour v. Johnson, 80
Wn. App. 643, 646-47, 910 P.2d 548 (1996). Nevertheless, assuming this appeal to be moot, we would proceed to the merits anyway.
Statute of Limitations
As defenses, Respect Washington asserts both the
statute of limitations and the doctrine of laches. Respect Washington contends either or both should bar

A-30
Global Neighborhood’s request for declaratory relief.
Respect Washington highlights that, on February 22,
2016, the Spokane City Council placed Proposition 1
on the November 7, 2017 ballot. Global Neighborhood
did not file its complaint until more than one year later,
May 1, 2017. Global Neighborhood did not file its summary judgment motion for declaratory relief until July
28, 2017.
We address first the defense of the statute of limitations. Global Neighborhood brought suit seeking
a declaratory judgment. Washington’s version of the
Uniform Declaratory Judgments Act lacks any statute
of limitations. The Supreme Court has announced that
a declaratory judgment action must be brought within
a reasonable time. Automotive United Trades Organization v. State, 175 Wn.2d 537, 541-42, 286 P.3d 377
(2012). This court has four times stated that, when assessing a reasonable period of time, we look to an analogous limitation period allowed for an appeal of a
similar decision as prescribed by statute, rule of court,
or other provision. Schreiner Farms, Inc. v. American
Tower, Inc., 173 Wn. App. 154, 159-60, 293 P.3d 407
(2013); Cary v. Mason County, 132 Wn. App. 495, 501,
132 P.3d 157 (2006); Brutsche v. City of Kent, 78 Wn.
App. 370, 376-77, 898 P.2d 319 (1995); Federal Way v.
King County, 62 Wn. App. 530, 536-37, 815 P.2d 790
(1991). The Washington Supreme Court has never
adopted this principle of adoption by analogy.
Respect Washington forwards three election related statutes of limitations. A challenge to a statewide initiative or referendum ballot title must be

A-31
commenced within five days. RCW 29A.72.080. The
deadline for a challenge to a local ballot title is only
ten days. RCW 29A.36.090. A judicial challenge of a refusal by the Washington Secretary of State to file a
statewide initiative must be filed in court within ten
days. RCW 29A.72.180.
Significant differences lie between a challenge to
the title of an initiative and a challenge to the substance of the initiative. The initiative if adopted will
take effect regardless of any defect in its title. If any
lawsuit will remedy the flaw in the initiative’s name,
the lawsuit should be brought in advance of the election and in time for the Secretary of State or local government official to place a proper title on the ballot. A
challenge to a refusal to place an initiative on the ballot also should be brought quickly in order to remedy
any wrongful refusal to consign the measure to the ballot.
A challenge to a local initiative as exceeding the
scope of a municipality’s legislative power may be
brought after the initiative election. If the challenge
can be brought after the vote, we should erect no impediment by reason of a statute of limitations applying
before the effectiveness of the initiative as an ordinance.
We deem the preelection challenge to a ballot initiative analogous to a challenge to an adopted ordinance or
statute. Under state law, no statute of limitations applies to a challenge to the constitutionality of a statute
or other action. Automotive United Trades Organization

A-32
v. State, 175 Wn.2d at 542-43 (2012); Viking Properties,
Inc. v. Holm, 155 Wn.2d 112, 117, 118 P.3d 322 (2005);
DeYoung v. Providence Medical Center, 136 Wn.2d 136,
146-47, 150, 960 P.2d 919 (1998). Similarly, no statute
of limitations should apply to the challenge of an ordinance that exceeds the authority of the entity adopting
the measure whether by its legislative body or the voters by initiative. When a plaintiff challenges the substance of an agency decision as exceeding statutory
authority, no statute of limitations applies until agency
action adversely impacts the plaintiff. Aguayo v. Jewell, 827 F.3d 1213, 1226 (9th Cir. 2016), cert. denied,
137 S. Ct. 832, 197 L. Ed. 2d 69 (2017). Many Washington decisions have entertained preelection initiative
challenges without suggesting a statute of limitations
that applied before the election might bar such a challenge.
Laches
We move to the doctrine of laches. Laches is an implied waiver arising from the knowledge of existing
conditions and acquiescence in them. Buell v. City of
Bremerton, 80 Wn.2d 518, 522, 495 P.2d 1358 (1972).
One who relies on a laches defense bears the burden to
prove: (1) knowledge or reasonable opportunity to discover on the part of a plaintiff that he or she has a
cause of action against a defendant, (2) an unreasonable delay by the plaintiff in commencing that cause
of action, and (3) damage to the defendant resulting
from the unreasonable delay. King County v. Taxpayers
of King County, 133 Wn.2d 584, 642, 949 P.2d 1260

A-33
(1997). Damage to a defendant can arise either from
acquiescence in the act about which plaintiff complains
or from a change of conditions. Lopp v. Peninsula
School District No. 401, 90 Wn.2d 754, 759-60, 585 P.2d
801 (1978).
Generally, laches depends on the particular facts
and circumstances of each case. Schrock v. Gillingham,
36 Wn.2d 419, 428, 219 P.2d 92 (1950). We regard the
nature of the case to be one factor to consider when
determining whether laches should be applied. Lopp v.
Peninsula School District No. 401, 90 Wn.2d at 759.
Other factors include the circumstances, if any, justifying the delay, the relief demanded, and the question of
whether the rights of defendant or other persons, such
as the public, will be prejudiced by the maintenance of
the suit. Lopp v. Peninsula School District No. 401, 90
Wn.2d at 759.
Laches is an extraordinary defense that is appropriately applied only when a party, knowing his rights,
takes no steps to enforce them and the condition of
the other party has in good faith become so changed
that the party cannot be restored to his or her former
state. Ward v. Richards & Rossano, Inc., 51 Wn. App.
423, 435, 754 P.2d 120 (1988). Absent unusual circumstances, the doctrine of laches should not be invoked to
bar an action short of the applicable statute of limitation. In re Marriage of Capetillo, 85 Wn. App. 311, 317,
932 P.2d 691 (1997).
Global Neighborhood contends that all three elements of laches are missing in this appeal. Global

A-34
Neighborhood first contends that the record does not
show that it had any knowledge of the existence of
Proposition 1 until it filed suit. We reject this contention since actual knowledge is not necessary. The first
element of laches extends to a reasonable opportunity
to discover on the part of a plaintiff a potential cause
of action. The record shows that the Spokane City
Council publicly addressed the placement of Proposition 1 on the ballot. The record further shows Proposition 1 to be well publicized in the Spokane environs.
The record includes editorials by the Spokesman Review and the Spokane Journal of Business ruing the
anti-immigrant initiative.
Global Neighborhood waited until May 1, 2017, to
file suit despite the Spokane City Council, on February
22, 2016, placing Proposition 1 on the November 2017
ballot. Global Neighborhood comments that it filed suit
one month after the Spokane City Council recodified
the Spokane Municipal Code’s racial profiling prohibitions into other sections in the code. But Global Neighborhood does not suggest that it delayed filing suit in
order to determine if the city council would recodify the
provisions. Global Neighborhood also lacks an explanation for delaying its challenge for more than one
month after passage of Spokane Ordinance C35485.
Therefore, we cannot assess the reasonableness of the
delay and, for purposes of this appeal, we assume unreasonableness. Nevertheless, we find no harm to Respect Washington by reason of a delay.
Respect Washington relies on Lopp v. Peninsula
School District, 90 Wn.2d 754 (1978), wherein the

A-35
Supreme Court held that the challengers’ one-month
delay after the special election for a school district
bond constituted an unreasonable delay. The challenger contended that the school district failed to give
proper notice of a board meeting during which the
board amended the title to a bond measure submitted
to the voters. Nevertheless, the court found the public
to have been harmed by the delay in challenging the
vote approving the bond measure. The school district
had received a favorable bid on the bonds, and, if the
district could not accept the bid, it would need to commence the entire bond offering procedure again. The
district would also lose three months of interest income, and construction plans would be delayed. The
delay in construction would further exacerbate the
already congested condition of classroom facilities.
Respect Washington complains that the delay in
filing suit harmed it because the delay ensured that
the organization could not receive appellate review of
a decision prior to the November 2017 election, and, in
turn, Respect Washington could not benefit by the initiative being on the 2017 ballot. Respect Washington
observes that the superior court’s decision was issued
on August 29, 2017, one week before the September 5,
2017 deadline for the ballots to be printed.
Although we recognize Respect Washington’s right
to appellate review, Respect Washington cites no case
that a delay in appellate review constitutes harm for
purposes of laches. Also, Respect Washington’s claim
of harm assumes that this court would reverse the
superior court’s decision and allow Proposition 1 to be

A-36
submitted for a vote. The claim of harm also assumes
that it had the right to a vote on an initiative that exceeded the initiative power. If anything, the Spokane
public is prejudiced by the expense incurred by the
City of Spokane in conducting a special election for an
initiative beyond the scope of the initiative power, such
that this court should not dismiss the suit on laches.
The claim of harm also assumes that this court lacks
authority to direct placement of Proposition 1 on a
later ballot.
Respect Washington’s contention also fails to recognize the possibility of accelerated review by this
court. Respect Washington never sought accelerated
review. This court recently granted accelerated review
and expeditiously issued an opinion in In re February
14, 2017, Special Election on Moses Lake School District No. 161 Proposition 1, 2 Wn. App. 2d 689, 413 P.3d
577 (2018), because of complications surrounding a
vote to approve a school district bond.
Injunctive Relief
Respect Washington claims that Global Neighborhood and other plaintiff organizations lack standing to
obtain an injunction enjoining the placement of Proposition 1 on the Spokane ballot. In so arguing, Respect
Washington does not challenge the plaintiffs’ standing to bring this suit. Respect Washington challenges
whether the organizations suffered sufficient harm to
gain standing for the issuance of an injunction. We are

A-37
unaware of any decision that delicately slices a party’s
standing in this manner.
Respect Washington challenges the trial court’s
ruling that the plaintiffs suffered “organizational
harm.” Respect Washington downplays any harm suffered by the organizations in diverting resources to
assist members in the event Proposition 1 passed. Respect Washington observes that someone always must
change activities if an initiative passes.
Respect Washington’s observation that someone
always must change activities when an initiative
passes because such is the nature of an initiative does
little to bolster its argument that plaintiff organizations lack standing in our appeal’s context. Respect
Washington apparently contends that, since an initiative always impacts someone, no one deserves standing to challenge the validity of the initiative. Respect
Washington fails to consider that someone impacted
by the initiative always has standing. The doctrine of
standing generally permits someone injured or impacted by an enactment to challenge the enactment.
One who seeks relief by temporary or permanent
injunction must show: (1) that he or she possesses a
clear legal or equitable right, (2) that he or she has a
well-grounded fear of immediate invasion of that right,
and (3) that the acts complained of are either resulting
in or will result in actual and substantial injury to him.
Washington Federation of State Employees v. State,
99 Wn.2d 878, 888, 665 P.2d 1337 (1983). Because all
three of these criteria must be satisfied to warrant

A-38
preliminary injunctive relief, the failure to establish
any one or more of the criteria dictates that we deny
the requested relief. Washington Federation of State
Employees v. State, 99 Wn.2d at 888.
All plaintiffs are organizations or associations. A
nonprofit organization may represent its members in a
proceeding for judicial review so long as it shows that
one or more of its members are specifically injured by
a governmental action. Save a Valuable Environment
v. City of Bothell, 89 Wn.2d 862, 867, 576 P.2d 401
(1978). Organizations possess standing to assert the
interests of their members, so long as the members
would otherwise have standing to sue, the organization
serves a purpose germane to the issue, and neither the
claim nor the relief requires the participation of individual members. Five Corners Family Farmers v. State,
173 Wn.2d 296, 304, 268 P.3d 892 (2011); International
Association of Firefighters, Local 1789 v. Spokane Airports, 146 Wn.2d 207, 213-14, 45 P.3d 186, 50 P.3d 618
(2002). An organization also has standing in its own
right with concrete and demonstrable injury to its activities caused by a drain on the organization’s resources. Havens Realty Corp. v. Coleman, 455 U.S. 363,
379, 102 S. Ct. 1114, 71 L. Ed. 2d 214 (1982); Fair
Housing of Marin v. Combs, 285 F.3d 899, 905 (9th Cir.
2002). Reading these principles together, we conclude
that an organization may gain standing to sue by either an impact on its own resources or by asserting the
rights of or wrongs to its members.
We conclude that at least one of the plaintiff organizations has standing on its own right and through

A-39
its members. If one plaintiff has standing, the court
will not address whether other challengers have standing. Huff v. Wyman, 184 Wn.2d 643, 649, 361 P.3d 727
(2015); League of Education Voters v. State, 176 Wn.2d
808, 817 n.3, 295 P.3d 743 (2013). A declaration from
the chairman of the board of Refugee Connections of
Spokane identifies its mission and the refugee and immigrant community the organization serves. The declaration explains how Proposition 1 will subject the
organization’s community of service to stops solely
because of race or looks despite community members
being present legally in the United States. The declaration explains that Proposition 1 will impact the organization’s programs and limited resources.
In addition to holding that the plaintiff organizations possess standing, we conclude that the City of
Spokane also has standing and its standing would
alone allow the suit to proceed. The City of Spokane is
a named defendant, not a plaintiff. Nevertheless, Spokane sought relief from the superior court and this
court. Spokane takes no position on the merits of the
challenge to Proposition 1, but the city does not wish
to incur the cost of an election for an invalid measure.
Thus, the City of Spokane asks this court, as it did the
superior court, to enjoin Proposition 1 from the ballot,
assuming the initiative to be outside the scope of the
local initiative power. We find no case that bases standing on the interests of a defendant, but granting standing on such circumstances is reasonable when the
defendant, as does Spokane, seeks relief.

A-40
Case law supports a city’s standing to seek an injunction precluding placing an invalid initiative on the
ballot. In Philadelphia II v. Gregoire, 128 Wn.2d 707
(1996), the Supreme Court noted that preelection review of a statewide initiative was proper to prevent
public expense on measures that are not authorized by
the constitution. Our court has observed:
We have recognized that requiring a city
to place an invalid initiative on the ballot
would result in an undue financial burden on
the government.
City of Longview v. Wallin, 174 Wn. App. 763, 782, 301
P.3d 45 (2013).
We recognize a ruling contrary to granting Global
Neighborhood standing by Division One of this court
in American Traffic Solutions, Inc. v. City of Bellingham, 163 Wn. App. 427, 260 P.3d 245 (2011). The court
held a proposed initiative exceeded the scope of the local initiative power. The initiative sought to prohibit
the use of automated traffic safety enforcement cameras. A state statute expressly delegated to the city legislative authority the power to adopt such camera
systems. Remarkably, the court refused to grant the initiative challengers injunctive relief to prevent a vote
on the initiative. The court reasoned that the challengers were not injured by the adoption of the initiative
because its adoption would be void.
American Traffic Solutions, Inc. v. City of Bellingham may be distinguished from City of Longview v.
Wallin in that the challenger in Wallin was the city

A-41
who needed to incur the expense of the ballot election.
Nevertheless, we consider American Traffic Solutions,
Inc. contrary to other decisions and principles of standing.
Free Speech
In response to Global Neighborhood’s lawsuit, Respect Washington argues that Global Neighborhood’s
preelection action attempt to invalidate Proposition 1
breaches its and its members’ right to free speech and
redress from the government as protected by both the
United States and Washington Constitutions. Respect
Washington relies on Coppernoll v. Reed, 155 Wn.2d
290, 119 P.3d 318 (2005) for the proposition that substantive preelection review may unduly infringe on
free speech values.
In Coppernoll v. Reed, our Supreme Court examined whether and under what circumstances preelection review of a statewide initiative violated article II,
section 1(a) of the Washington Constitution, which provides the power of initiative to Washington citizens.
In considering this issue, the court delineated three
distinct and separate categories of preelection challenges. The Supreme Court categorized challenges to
statewide initiatives and then determined which categories suffice for a preelection challenge. In so doing,
the court observed:
Because ballot measures are often used
to express popular will and to send a message to elected representatives (regardless

A-42
of potential subsequent invalidation of the
measure), substantive preelection review may
also unduly infringe on free speech values.
Coppernoll v. Reed, 155 Wn.2d at 298. Nevertheless,
the Supreme Court announced no rule that proponents
of initiatives hold a First Amendment right to the advancement of the initiative to the ballot box. Instead,
the court recognized the validity of preelection challenges under some circumstances.
In City of Longview v. Wallin, 174 Wn. App. 763
(2013), this court rejected a First Amendment argument identical to the one raised by Respect Washington in this appeal. Mike Wallin sponsored a local
initiative proposing restrictions on the use of traffic
safety cameras. The superior court granted the city’s
declaratory judgment request to withhold the initiative from the ballot because the initiative exceeded
the scope of the local initiative power. On appeal,
Wallin argued the trial court’s ruling violated his First
Amendment rights, and he similarly relied on the sentence from Coppernoll v. Reed for support. This court
deemed Wallin’s reliance on Coppernoll unpersuasive,
particularly because the initiative in Coppernoll was a
statewide initiative, whereas the initiative sponsored
by Wallin was a local initiative. The local initiative
power does not derive from our state constitution; rather, a statute authorizes this power. The constitutional preeminence of the right of initiative discussed
in Coppernoll does not enjoy the same vigilant protection with respect to municipal initiatives. This court
also limited Wallin’s First Amendment right to free

A-43
speech to the gathering of signatures on his initiative
petition. The right did not extend to placing the initiative on the ballot.
In Port of Tacoma v. Save Tacoma Water, 4 Wn.
App. 2d 562, 422 P.3d 917 (2018), this court recently
again addressed a First Amendment argument in favor
of placing a local initiative on the ballot. The proponents of an initiative to limit the availability of a municipality’s water service contended that the removal
of the initiative from the ballot violated its right to free
speech under the First Amendment of the United
States Constitution and article I, sections 4 and 5 of
the Washington Constitution. This court observed that
the United States Supreme Court held that the circulation of an initiative petition involves the type of interactive communication concerning political change
that entails core political speech. Nevertheless, barring
an initiative from the ballot does not violate the constitution when the initiative lies outside the scope of
the local initiative’s power.
Other courts have rejected a constitutional right
to place an initiative or referendum on the ballot. Angle v. Miller, 673 F.3d 1122, 1133 (9th Cir. 2012); State
ex rel. Bolzenius v. Preisse, 2018-Ohio-3708, ___ N.E.3d
___ (Sept. 14, 2018). This rejection follows the principle
that a state may entirely decline to grant a right to
legislate through ballot initiatives. Idaho Coalition
United for Bears v. Cenarrusa, 342 F.3d 1073, 1077 n.7
(9th Cir. 2003).

A-44
Validity of Proposition 1
We move to the merits of the appeal and address
the validity of Proposition 1. This appeal concerns a
municipality’s proposed initiative. The law treats a
statewide initiative different from a local government
initiative. Protect Public Health v. Freed, No. 95134-9
(Wash. Dec. 6, 2018), http://www.courts.wa.gov/Opinions/pdf/951349.pdf; Coppernoll v. Reed, 155 Wn.2d at
297 (2005); City of Longview v. Wallin, 174 Wn. App. at
790 (2013); Philadelphia II v. Gregoire, 128 Wn.2d at
712 (1996). The Seventh Amendment to the Washington State Constitution establishes the people’s right
to statewide initiative, and the courts interpret this
power broadly to favor this right. Coppernoll v. Reed,
155 Wn.2d at 297.
Our constitution does not extend the initiative or
referendum power to cities, but the legislature has enacted enabling legislation authorizing municipal initiatives and referenda. City of Longview v. Wallin, 174
Wn. App. at 791. The Washington Legislature granted
charter cities the opportunity to afford city voters the
initiative process. RCW 35.25.200. The City of Spokane
exercised this privilege in sections 81 and 82 of the
Spokane City Charter. CITY OF SPOKANE CHARTER §§ 81,
82.
Global Neighborhood filed suit before Spokane
residents could vote on Proposition 1. The law disfavors judicial preelection review of initiatives. Protect
Public Health v. Freed, No. 95134-9 at 463; Spokane
Entrepreneurial Center v. Spokane Moves to Amend

A-45
Constitution, 185 Wn.2d 97, 104, 369 P.3d 140 (2016).
Courts will, however, review, before the election, a local initiative to determine whether the proposed law
exceeds the scope of the initiative power. Spokane Entrepreneurial Center v. Spokane Moves to Amend Constitution, 185 Wn.2d at 104. Washington courts more
readily bar a local government initiative or referendum, than a state initiative or referendum, from the
ballot box since the state constitution authorizes such
state ballot measures.
No constitutional or statutory provision expressly
limits the scope of local government initiative in Washington State. Neither the Spokane City Charter nor
the Spokane Municipal Code explicitly imposes restrictions on the subject of an initiative. Nevertheless,
case law impresses at least three restraints on a local
initiative. First, the initiative must be “legislative,” not
“administrative,” in nature. Second, the initiative may
not interfere with state or federal law. Coppernoll v.
Reed, 155 Wn.2d at 297 (2005). Third, the law must
grant the municipality as a whole, rather than a board
or council of the municipality, the power to adopt the
provision. City of Sequim v. Malkasian, 157 Wn.2d 251,
261, 138 P.3d 943 (2006). With regard to these restrictions on citizen rights, a referendum is no different
from an initiative, and we treat decisions involving referenda the same in our discussion.
A court may strike the initiative from the ballot if
the initiative violates any of the three limitations.
Global Neighborhood relies on the first and second

A-46
bases. We base our decision on the distinction between
administrative and legislative measures.
A city council or a county commission, unlike
the state legislature, exercises executive and quasijudicial functions in addition to legislative functions.
Margolis v. District Court, 638 P.2d 297, 303 (Colo.
1981). At the same time, the power of the people to enact ordinances by initiative or referendum implicates
only the legislative power of the municipality. Thus,
the majority American rule permits ballot initiatives
or referenda only with regard to acts legislative in temperament. City of Aurora v. Zwerdlinger, 194 Colo. 192,
571 P.2d 1074, 1076 (1977). Otherwise ballot initiatives could bring the machinery of government to a
halt. City of Aurora v. Zwerdlinger, 571 P.2d at 1076.
The right to act directly through referendum or initiative is not an inherent power of the people. Ballasiotes v. Gardner, 97 Wn.2d 191, 195-96, 642 P.2d 397
(1982). Under our state constitution, municipal governments are not fully sovereign and derive their authority to utility [sic] the initiative process from
statute, rather than the constitution. City of Port Angeles v.Our Water-Our Choice!, 170 Wn.2d 1, 8, 239 P.3d
589 (2010).
RCW 35.22.200 declares, in part:
The legislative powers of a charter city
shall be vested in a mayor and a city council,
to consist of such number of members and to
have such powers as may be provided for in its
charter. The charter may provide for direct

A-47
legislation by the people through the initiative and referendum upon any matter within
the scope of the powers, functions, or duties of
the city. . . .
(Emphasis added.) In conformance with the statute,
Washington case law limits the local initiative power
to legislation or “legislative matters” within the authority of the city. Spokane Entrepreneurial Center v.
Spokane Moves to Amend Constitution, 185 Wn.2d at
107. In turn, the case law distinguishes between “legislative” and “administrative” measures and precludes administrative matters as the subject of an
initiative or referendum. Spokane Entrepreneurial
Center v. Spokane Moves to Amend Constitution, 185
Wn.2d at 107.
When drawing a distinction between administrative and legislative measures, the Washington Supreme Court, like other state high courts, has adopted
two tests entailing various factors enumerated in the
leading treatise, Eugene McQuillin’s The Law of Municipal Corporations. City of Port Angeles v. Our WaterOur Choice!, 170 Wn.2d at 11 (2010); Heider v. City of
Seattle, 100 Wn.2d 874, 875-76, 675 P.2d 597 (1984);
Citizens for Financially Responsible Government v.
City of Spokane, 99 Wn.2d at 347 (1983); Ballasiotes v.
Gardner, 97 Wn.2d at 195-96 (1982); Seattle Building
& Construction Trades Council v. City of Seattle, 94
Wn.2d 740, 748, 620 P.2d 82 (1980); Ruano v. Spellman,
81 Wn.2d 820, 823-24, 505 P.2d 447 (1973); Leonard v.
City of Bothell, 87 Wn.2d at 850-51 (1976); Durocher v.
King County, 80 Wn.2d 139, 152-53, 492 P.2d 547

A-48
(1972). The latest revision of the McQuillin treatise,
from 2013, reads in relevant part:
Actions relating to subjects of a permanent and general character are usually regarded as legislative, and those providing for
subjects of a temporary and special character
are regarded as administrative. In this connection an ordinance which shows an intent
to form a permanent rule of government until repealed is one of permanent operation.
Obviously, details which are essentially of a
fluctuating sort, due to economic or other conditions, cannot be set up in and by an ordinance to be submitted to the vote of the
people.
The test of what is a legislative and what
is an administrative proposition, with respect to the initiative or referendum, has
further been said to be whether the proposition is one to make new law or to execute law already in existence. The power
to be exercised is legislative in its nature
if it prescribes a new policy or plan;
whereas, it is administrative in its nature if it merely pursues a plan already
adopted by the legislative body itself, or
some power superior to it. Similarly, an
act or resolution constituting a declaration of public purpose and making
provision for ways and means of its accomplishment is generally legislative as
distinguished from an act or resolution
which merely carries out the policy or purpose already declared by the legislative

A-49
body. In applying the “legislative” versus
“administrative” test distinguishing on
the basis of “new policy or plan” versus
“pursuit of plan already adopted,” the court
will apply a liberal rule of construction so
that, for example, a resolution approving
an annexation has been construed as municipal legislation in that it was characterized as a new law to which referendum
powers apply. The distinction between
“legislative” and “administrative” matters is the distinction between making
laws of general applicability and permanent nature, on the one hand, as opposed
to decisions implementing such general
rules, on the other.
....
Whether a particular municipal activity
is administrative or is legislation often depends not on the nature of the action but the
nature of the legal framework in which the action occurs.
5 EUGENE MCQUILLIN, THE LAW OF MUNICIPAL CORPORATIONS § 16.53 (3d ed. 2013) (footnotes omitted).
This excerpt from § 16.53 begs several questions,
some of which loom important in our analysis of the
validity of Proposition 1. What if the subject of the initiative is permanent but limited, not general, in character? Where lies the dividing line between an action
general in nature and specific in character? Is an act
general in nature because it applies throughout the entire geographic boundaries of the municipality and

A-50
limited when only applying to certain neighborhoods?
Or is the act general in nature if it applies to all persons despite a limited geographical reach and limited
if it applies only to a subset of persons? Is the act administrative in nature if it applies only to the conduct
of municipal employees? If the initiative proposes to
reverse recent law does it create new law? If the initiative proposes to reverse a recent ordinance does it
create new law even if the initial ordinance was administrative in nature? What if the initiative has some
characteristics of an administrative action and some
attributes of a legislative act?
Some principles announced in Washington cases
partially answer these questions. In distinguishing between administrative and legislative proposals, we
look at the fundamental and overriding purpose of the
initiative, rather than mere incidentals to the overriding purpose. Coppernoll v. Reed, 155 Wn.2d at 302
(2005). An initiative is administrative in nature if it
hinders or furthers a plan the local government, or
some power superior to it, has previously adopted. City
of Port Angeles v. Our Water-Our Choice!, 170 Wn.2d at
11. An initiative may be administrative in nature if it
conflicts with state law’s directions to government employees or entities. Seattle Building & Construction
Trades Council v. City of Seattle, 94 Wn.2d at 749
(1980).
The most learned treatment of the difference
between administrative and legislative municipal actions comes from the Kansas Supreme Court. City of
Wichita v. Kansas Taxpayers Network, Inc., 255 Kan.

A-51
534, 874 P.2d 667 (1994); City of Lawrence v. McArdle,
214 Kan. 862, 522 P.2d 420 (1974). The Kansas high
court recognizes that whether a proposed initiative is
legislative or administrative is often a difficult question to answer in part because no single act of a governing body is solely legislative or administrative.
McAlister v. City of Fairway, 289 Kan. 391, 212 P.3d
184, 193-94 (2009). The question can be fact specific.
McAlister v. City of Fairway, 212 P.3d at 194. No one
factor necessarily controls over the others. McAlister v.
City of Fairway, 212 P.3d at 195. The court will give
consideration to each factor before reaching a final decision. McAlister v. City of Fairway, 212 P.3d at 195.
But in doing so, the weight given to any one factor may
be enough under a particular factual situation to decide that a proposed ordinance intrudes too far into a
city’s administrative arena and thereby becomes administrative in nature. McAlister v. City of Fairway,
212 P.3d at 195.
In addition to the traditional factors of general or
specific and creating or implementing policy, the Kansas high court added the technical nature of the proposal as another consideration. McAlister v. City of
Fairway, 212 P.3d at 194. A decision that requires specialized training and experience in municipal government and intimate knowledge of the fiscal and other
affairs of a city in order to make a rational choice
should be deemed administrative, even though the
choice may entail some characteristics of establishment of policy. McAlister v. City of Fairway, 212 P.3d at
194.

A-52
The Washington Supreme Court, without expressly adopting the specialized complexion of a municipal ordinance or initiative as a factor, commented
on the technical nature of a measure in Leonard v. City
of Bothell, 87 Wn.2d 847 (1976). The Supreme Court
declared as administrative a proposed referendum on
a municipal ordinance that would rezone property
from agricultural to community business and would
modify the city’s comprehensive plan to allow a regional shopping center. The court observed:
Amendments to the zoning code or rezone
decisions require an informed and intelligent
choice by individuals who possess the expertise to consider the total economic, social, and
physical characteristics of the community.
Respondent’s planning commission and city
council normally possess the necessary expertise to make these difficult decisions. The
State Environmental Policy Act of 1971 (SEPA),
RCW 43.21C, emphasizes this need for carefully planned land-use decisions. . . . SEPA requires a sophisticated understanding of the
environmental problems of the project.
Leonard v. City of Bothell, 87 Wn.2d at 854.
We now analyze the complexion of Proposition 1.
In doing so, we consider Proposition 1 as repealing or
modifying the earlier sections of the Spokane Municipal Code, former SMC 3.10.040, .050, which addressed
the same subject matter, the questioning by police of
an individual’s immigration and citizenship status. We
recognize that current Spokane policy allows a law

A-53
enforcement officer to question a suspect about his or
her immigration status, but limits the circumstances
under which a police officer may question an individual as to the individual’s immigration status, citizenship status, or refugee status. The officer may question
about status if the officer holds reasonable suspicion
that the person was previously deported from the
United States and is committing or has committed a
felony. Current Spokane law and policy limits the circumstances under which a police officer should forward immigration status information to the United
States Immigration and Customs Enforcement Agency.
Proposition 1 removes any restrictions on any officer
or other employee of Spokane to question one about his
or her immigration status or to forward immigration
status information to others.
We recognize at least one characteristic of Proposition 1 in common with legislative acts. Proposition 1
adopts a rule of government permanent in nature. An
initiative showing an intent to form a standing rule of
government, until it is repealed, is one of permanent
operation. McAlister v. City of Fairway, 212 P.3d at 196.
Respect Washington argues that Proposition 1 is
legislative in nature because of the additional feature
that the initiative seeks to reverse or change city policy. Respect Washington also contends that, although
the subject matter at issue originated as Spokane Police Department policy, the adoption of the policy by
the Spokane City Council transformed the policy from
administrative in nature to legislative in nature.

A-54
Respect Washington analogizes to Citizens for Financially Responsible Government v. City of Spokane,
99 Wn.2d at 347 (1983), in which citizens wished to repeal a business tax after the city council enacted the
tax. When conducting the administrative versus legislative analysis, the Washington Supreme Court analyzed whether the original ordinance, rather than the
citizens’ referendum, was administrative. The court
concluded that the city ordinance was legislative in nature and subject to referendum. In reaching this conclusion, the court noted that the city ordinance could
not be viewed as an execution of policy already in existence. Rather, the tax ordinance set a new policy. The
Supreme Court did not expressly avow that an initiative that revokes an ordinance legislative in nature
also renders the initiative legislative in nature, the
court ruling implies such. Thus, we agree with Respect
Washington that Proposition 1, assuming the underlying former SMC 3.10.040 and .050 to be legislative,
maintains some legislative character in that the initiative modifies, if not reverses in part, legislative policy
established by the city council.
Other characteristics of Proposition 1 share features in common with administrative acts. SMC
3.10.010(B)(1) delegates to the Spokane Police Department police chief authority to issue rules for the proper
functioning of the police department. The Spokane
City Council did not adopt former SMC 3.10.040 and
.050 in a vacuum. The Spokane Police Department had
already adopted standing policies with regard to questioning individuals about immigration and citizenship

A-55
status. The Spokane City Council, when adopting former SMC 3.10.040 and .050, merely codified existing
police department policy.
We recognize the argument that, if the city council
adopts a department’s administrative policy, the policy
transforms into a legislative policy. Nevertheless, no
case law supports that contention. If other actions
by the city legislative body constitute administrative
action, the adoption of a city department’s administrative regulations can remain administrative in character. When analyzing the legislative or administrative
nature of a municipal act, courts consider the framework of the action. Proposition 1 challenges a Spokane
policy, whose framework’s base consists of administrative building blocks.
Proposition 1 interferes with Spokane Police Department policy to limit the circumstances under which
law enforcement officers inquire about immigration
and citizenship status. To repeat, an initiative is administrative in nature if it hinders or furthers a plan
the local government previously adopted. City of Port
Angeles v. Our Water-Our Choice!, 170 Wn.2d at 11.
Proposition 1 hinders a policy previously adopted by
the local government similarly to the proposed initiative that interfered in the building of the King County
stadium in Ruano v. Spellman, 81 Wn.2d 820 (1973).
We recognize that the state Supreme Court, in
State ex rel. Pike v. City of Bellingham, 183 Wash. 439,
48 P.2d 602 (1935), held the fixing of salaries of firefighters and police officers to be legislative in nature.

A-56
One might argue that the decision suggests that administrative affairs of a police department may be legislative in nature. Nevertheless, the city of Bellingham
measure did not directly impact how to administer services provided by the police department.
We are unaware of any decision that expressly
holds that directions to employees constitute administrative, not legislative, policy. Nevertheless, logic supports such a conclusion. Directions to government
employees may come from a legislature but generally
derive as administration actions by department heads.
We observe that the language in former SMC
3.10.040 and .050, in their code section replacements
at SMC 18.07.010 and .020, and in Proposition 1 lack
any declaration of policy. McQullin [sic] on Municipal
Corporations and impliedly Ballasiotes v. Gardner, 97
Wn.2d 191 (1982) state that a declaration of policy, or
the lack of a declaration of policy, influences the action
as being respectively legislative or administrative in
nature. Since a declaration of policy generally functions as a formality, we deem this factor of limited assistance. Still, the lack of a declaration of policy in our
operative ordinances and Proposition 1 bolsters our
conclusion.
In addition to relying on Proposition 1 countering
a Spokane Police Department policy, we emphasize the
need for expertise on the challenging and charged
question of whether local government agents should
question individuals about immigration or citizenship
status. United States legislative policy dictates the

A-57
removal of those illegally in the United States, and the
federal government operates an agency and a separate
court system to fulfill this dictate. If and when a local
law enforcement agency seeks to question an individual as to his or her legal status inside the nation’s borders involves a different query. Case law and literature
recognizes the need to weigh conflicting goals before
establishing a policy of asking or withholding questioning regarding one’s citizenship status. Local law
enforcement agencies must also navigate constitutional protections afforded residents before asking for
information on one’s status. These factors implicate
the success of law enforcement efforts and thus questioning should be reserved to the expertise of law enforcement administrators.
We discern from its name that Respect Washington seeks respect for all law, including immigration
laws and laws demanding deportation of those unlawfully within the United States, including within the
city of Spokane. Respect for all law is a noble standard
and deporting those unlawfully in the nation a legitimate end to this principle. But a law enforcement
agency that allows officers free reign [sic] in questioning anyone as to his or her citizenship status, such as
proposed in Proposition 1, can encounter negative side
effects from such a policy.
Proposition 1 allows city of Spokane employees to
collect information on immigration status. The collection of data assumes the right to question individuals
of their status. Proposition 1 provides no limits on
when a law enforcement officer, or for that matter any

A-58
employee of the city of Spokane, can question others
about citizenship status. Spokane Police Department
policy and Spokane city ordinances already allow police officers to question those reasonably suspected to
be committing a crime by returning to the United
States unlawfully after being deported. If law enforcement officers can already question those for whom
probable cause of this federal felony exists, one wonders under what circumstances city employees will
seek information from other city residents about their
status when no probable cause exists. We do not expect
law officers to ask everyone encountered as to his or
her status. Our extensive reading of literature and
case law teaches, however, that, without any guidelines, some officers will inevitably target those persons
who look foreign or speak a different language, regardless of citizenship, for questioning. The practice of
questioning some and not others leads to racial profiling. During oral argument, Respect Washington agreed
that asking one his or her immigration status or citizenship status can be racial profiling under some circumstances. Wash. Court of Appeals oral argument, Global
Neighborhood v. Respect Washington, No. 35528-4-III
(Oct. 23, 2018), 34.55 to 35.15 (on file with court).
As noted in Parada v. Anoka County, 332
F. Supp. 3d 1229 (D. Minn. 2018):
A substantial number of Latinos – both
U.S. citizens and foreign-born residents – are
less likely to contact the police or report
crimes, even when they are victims, because
they fear that police will inquire about their

A-59
immigration status. While the U.S. immigrant
population is extremely vulnerable to crime,
police mistrust is common within immigrant
communities. In Minnesota, law-enforcement
agencies fear that the immigrant community’s distrust of police results in increased
crime against immigrants and decreased reporting of such crimes.
332 F. Supp. 3d at 1235-36 (footnotes omitted) (citing
NIK THEODORE, INSECURE COMMUNITIES: LATINO PERCEPTIONS OF POLICE INVOLVEMENT IN IMMIGRATION ENFORCEMENT 5-6 (2013); Mai Thi Nguyen & Hannah Gill,
Interior Immigration Enforcement: The Impacts of Expanding Local Law Enforcement Authority, 53 URB.
STUD. 14-16 (Feb. 2016); Jill T. Messing, et al., Latinas’
Perception of Law Enforcement: Fear of Deportation,
Crime Reporting, and Trust in the System, 30 J. Women
& Soc’y. 328, 330 (2015); INTERNATIONAL ASSOCIATION OF
CHIEFS OF POLICE, POLICE CHIEFS GUIDE TO IMMIGRATION ISSUES 28 (2007); Sam Torres & Ronald E. Vogel,
Pre and Post-Test Differences Between Vietnamese and
Latino Residents Involved in a Community Policing
Experiment: Reducing Fear of Crime and Improving
Attitudes Towards the Police, 24 POLICING: INTERNATIONAL J. POLICE STRAT. & MGMT. 40, 53 (2001)).
A police chief or sheriff deputy deserves the opportunity to adopt administrative policies deemed best for
his or her jurisdiction in combatting crime, protecting
victims, and allocating limited law enforcement resources. One city police department, in furtherance of
an administrative policy of strict enforcement of all

A-60
law, may liberally direct its officers to question about
immigration status. Another city police department,
pursuant to other legitimate law enforcement concerns, may direct its line officers to strictly limit questioning of citizenship status. The populace and law
enforcement sometimes criticize persnickety courts
and the legislature for micromanaging methods of law
enforcement. Proposition 1 would further micromanagement.
Washington case law recognizes as a separate exception to the power of a local government, to adopt an
initiative, a proposal that conflicts with federal or state
law. Spokane Entrepreneurial Center v. Spokane Moves
to Amend Constitution, 185 Wn.2d at 108; Coppernoll
v. Reed, 155 Wn.2d at 299; Seattle Building & Construction Trades Council v. City of Seattle, 94 Wn.2d at
746 (1980). This rule fulfills the principle of primacy of
federal and state over local law. Nevertheless, sometimes the separation between this exception borne of
conflict of law blurs with the exception based on administrative measures or policies. Administrative acts
include acts that result from governmental powers
properly assigned to the executive department and
necessary to carry out legislative policies and purposes
already devolved on a municipal body by the law of
the state. In re Referendum Petition to Repeal Ordinance 04-75, 388 N.J. Super. 405, 908 A.2d 846, 850
(2006), aff ’d [and judgment modified], 192 N.J. 446,
931 A.2d 595 (2007). When a municipal government
complies with and places into execution a state or local
legislative mandate in adopting an ordinance, the

A-61
municipality exercises a ministerial and administrative function not subject to referendum. In re Referendum Petition to Repeal Ordinance 04-75, 908 A.2d at
851. Therefore, if a proposed initiative covers a direction from state law but conflicts with that direction, the
initiative might also be considered administrative in
nature.
As indicated in the opening of the factual section,
RCW 43.101.410 precludes law enforcement agencies
from racial profiling. Racial profiling of any kind is
anathema to our criminal justice system. Chavez v. Illinois State Police, 251 F.3d 612, 635 (7th Cir. 2001).
Global Neighborhood also forwards RCW 10.40.200(1),
which prohibits the collection and dissemination of
immigration information during the plea stage of a
criminal proceeding. Proposition 1 would place city
employees, such as city prosecutors and public defenders, in a situation that conflicts with the statute.
The current Spokane Police Department policy
limiting questioning of individuals about immigration
status and citizenship status also fulfills strictures of
federal law. Under federal constitutional law, an officer
may not rely solely on the appearance of an individual
in questioning about immigration status. United States
v. Montero-Camargo, 208 F.3d 1122, 1131-32 (9th Cir.
2000). Instead questioning must be based on individual suspicion. United States v. Montero-Camargo, 208
F.3d at 1133. Proposition 1 would allow an officer to
approach anyone of his or her choosing on the street
and ask the person as to his or her immigration or citizenship status.

A-62
A law enforcement officer does not breach the
Fourth Amendment when the officer’s questioning of a
detainee’s immigration status does not prolong the
stop. Muehler v. Mena, 544 U.S. 93, 101, 125 S. Ct. 1465,
161 L. Ed. 2d 299 (2005). Nevertheless, a law enforcement officer violates one’s rights by delaying one’s release from a stop in order to ascertain the detainee’s
immigration status. Illinois v. Caballes, 543 U.S. 405,
407, 125 S. Ct. 834, 160 L. Ed. 2d 842 (2005). One wonders how a law enforcement officer can inquire about
one’s immigration status without prolonging the stop
when inquiring about the status necessarily prolongs
the detainment.
An individual’s race, standing alone, is not an appropriate factor for assessing reasonable suspicion in
the immigration enforcement setting. United States v.
Salinas, 940 F.2d 392, 394 (9th Cir. 1991). An individual’s difficulty in speaking English also does not
constitute a valid race-neutral basis for initiating an
immigration investigation. Farm Labor Organizing
Committee v. Ohio State Highway Patrol, 308 F.3d 523,
539 (6th Cir. 2002). The Equal Protection Clause prohibits a police officer from selecting one for a consensual interview solely on the basis of the person’s race.
Farm Labor Organizing Committee v. Ohio State Highway Patrol, 308 F.3d at 539.

A-63
CONCLUSION
We affirm the superior court’s grant of an injunction precluding the placement of Proposition 1 on the
ballot for a vote by Spokane voters.
/s/ Fearing J.
Fearing, J.
WE CONCUR:
/s/ Korsmo, J.
Korsmo, J.
/s/ Siddoway, J.
Siddoway, J.

APPENDIX
We list in reverse chronological order and tersely
discuss Washington cases that address the validity of
an initiative and that inform our decision.
In Protect Public Health v. Freed, No. 95134-9
(Wash. Dec. 6, 2018), the Supreme Court held that a
proposed initiative to ban public funding for community health engagement sites went beyond the scope
of the local initiative power. The sites would afford a
safe location for injecting drugs. The initiative interfered with the budgetary authority of the King County
Council. RCW 36.40.080 and .250 granted to the county
council the authority to fix each item of the budget. RCW
70.12.025 directed each county legislative authority

A-64
to annually budget and appropriate sums for public
health.
In Port of Tacoma v. Save Tacoma Water, 4 Wn.
App. 2d 562 (2018), a political committee submitted
two initiative petitions. One initiative proposed an
amendment to the Tacoma City Charter and the other
sought to enact a new municipal ordinance. The two
initiatives contained similar text that would require a
vote of Tacoma residents before the city extended water service to applicants seeking at least one million
gallons of water daily. Corporations that violated the
provisions would be deemed nonpersons. The Court of
Appeals denied the measure a vote on the basis that
the proposition was administrative and conflicted with
state law. The Tacoma Municipal Code already outlined a process for applications for water service. The
initiative would impose additional application requirements on certain large users. A state statute required
that a municipal water supplier provide retail water
service under certain conditions. The initiative would
deny service to some potential customers under additional circumstances.
In Spokane Entrepreneurial Center v. Spokane
Moves to Amend Constitution, 185 Wn.2d 97 at 101,
110 (2016), the state high court held a local measure
that would require any proposed zoning changes involving large developments to be approved by voters to
be contrary to established water rights system and
thus administrative. The court declared the initiative
invalid.

A-65
City of Longview v. Wallin, 174 Wn. App. 763
(2013), the city brought an action for a declaration that
the ballot initiative proposing restrictions on the use
of traffic safety cameras was beyond the scope of the
local initiative power. This court agreed. A state statute expressly delegated to the city legislative authority, rather than the city as a whole, the power to adopt
such camera systems.
In American Traffic Solutions, Inc. v. City of Bellingham, 163 Wn. App. 427 (2011), this court held a
proposed initiative exceeded the scope of the local initiative power. The initiative sought to prohibit the use
of automated traffic safety enforcement cameras. A
state statute expressly delegated to the city legislative
authority the power to adopt such camera systems.
Remarkably, the court refused to grant the initiative
challengers injunctive relief to prevent a vote on the
initiative. The court reasoned that the challengers
were not injured by the adoption of the initiative because its adoption would be void. This decision might
be distinguished from City of Longview v. Wallin in
that the challenger in Wallin was the city who needed
to incur the expense of the ballot election.
In City of Port Angeles v. Our Water-Our Choice!,
170 Wn.2d 1 (2010), the Supreme Court declared an initiative attempting to reverse implementation of a city
water fluoridation program to be administrative. The
court emphasized that the city council’s decision to
fluoridate potable water was made pursuant to an existing water management plan and detailed state administrative regulations governing water. Both state

A-66
and federal government promulgated water regulations.
In Futurewise v. Reed, 161 Wn.2d 407, 166 P.3d
708 (2007), challengers sought declaratory and injunctive relief to prohibit the Washington Secretary of
State from placing, on the general election ballot, Initiative 960 (I-960), which if enacted would amend state
statutes to require two-thirds legislative approval or
voter approval for the raising of taxes. The initiative
would also require advisory votes on tax increases enacted without voter approval. The Supreme Court denied relief. A unanimous court held that the initiative
was not subject to preelection review on the ground
that, if enacted, it would conflict with, and therefore
improperly “amend,” the state constitution without
complying with procedures for amending the state constitution.
In City of Sequim v. Malkasian, 157 Wn.2d 251
(2006), the Supreme Court precluded placement on the
ballot an initiative that would impose additional requirements on revenue bonds. The pertinent statutory
scheme assigned authorization for issuing revenue
bonds to the city council.
In Coppernoll v. Reed, 155 Wn.2d at 293 (2005),
the Supreme Court addressed a statewide initiative
that would restrict noneconomic damages in claims for
negligent healthcare to $350,000, shorten time limits
for filing suit, and limit attorney fees for claimants.
Challengers to the initiative claimed the initiative to
be unconstitutional under settled Washington law. The

A-67
court refused to address the constitutionality of the
initiative. The court also deemed the initiative to be
within legislative powers in that it addressed a general
subject matter that being causes of action and the
practice of law.
In Maleng v. King County Corrections Guild, 150
Wn.2d 325, 76 P.3d 727 (2003), the King County prosecutor filed suit to enjoin the placement on the ballot
of a proposed initiative to reduce the size of the county
council. The court held the process of amending a city
charter to be legislative in character and thus subject
to an initiative.
In Priorities First v. City of Spokane, 93 Wn. App.
406, 968 P.2d 431 (1998), a political action committee
petitioned for a writ of mandamus directing the city of
Spokane to place on the ballot an initiative that would
require the city to obtain voter approval before pledging parking meter revenue to fund a parking garage.
This court denied relief because the initiative conflicted with the authority delegated by state statute to
a city’s legislative body.
In Snohomish County v. Anderson, 123 Wn.2d 151,
868 P.2d 116 (1994), the court stopped an initiative
that would impact a county’s planning scheme. The
court observed that RCW 36.70A.210(2) authorized the
county legislative authority to adopt countywide planning policy.
In Heider v. City of Seattle, 100 Wn.2d at 876
(1984), the Supreme Court held a proposed change of a
city street name to be administrative in nature and

A-68
thus not a proper subject for an initiative. The court
deemed the first test of legislative versus administrative helped little since a street name change is of a
permanent character and not general in character.
Also, the change could be deemed as “ ‘special’ ” but
not “ ‘temporary.’ ” The second test helped, however.
The name change ordinance merely amended Seattle’s
comprehensive street names ordinance. Therefore,
the ordinance should be characterized as administrative, since it was enacted pursuant to a plan already
adopted by the legislative body itself.
In Citizens for Financially Responsible Government v. City of Spokane, 99 Wn.2d 339 (1983), the city
passed an ordinance enacting a business and occupation tax. Through a referendum, city citizens sought repeal of the tax. When conducting the administrative
versus legislative analysis, the court analyzed whether
the original ordinance enacting the tax was administrative. The court did not analyze, as most other case
law does, whether the citizens’ referendum was administrative in nature. The court ultimately concluded
that the city ordinance was legislative in nature and
subject to referendum. In reaching this conclusion, the
court noted the city ordinance could not be viewed as
an execution of policy already in existence. Rather, the
court viewed the ordinance as setting a new policy. The
ordinance never referenced a policy already in existence.
In Ballasiotes v. Gardner, 97 Wn.2d 191 (1982),
Pierce County adopted an ordinance that converted
the existing lever machine voting equipment to punch

A-69
card and computer tabulating voting equipment. The
ordinance affirmed a previous decision made by the executive power of the county to change to a punch card
system. Nevertheless, the county council ordinance declared it to be the policy of the county to implement the
punch card system. Citizens sought a referendum to
return the county to the lever machine system. The Supreme Court held the measure to implement a punch
card voting system to be “legislative” in character and
referendable. Affirming an executive decision did not
render the decision administrative. The court also held
that the act of funding the new punch card system was
legislative in character.
In Seattle Building & Construction Trades Council
v. City of Seattle, 94 Wn.2d 740 (1980), the Supreme
Court held that a proposed city initiative that sought
to prohibit expansion of Interstate 90 facilities on a
lake went beyond the scope of the initiative power. A
state statute declared the interstate highway a state
route. The State held title to the highway and assumed
full jurisdiction, responsibility, and control of the roadway. A city held power over a state highway only to the
extent authorized by the state legislature. Thus, any
such powers constituted administrative powers.
In Leonard v. City of Bothell, 87 Wn.2d 847 (1976),
citizens sought to compel a referendum election on a
municipal ordinance that would rezone property from
agricultural to community business and would modify
the city’s comprehensive plan to allow a regional shopping center. The Supreme Court held that the ordinance was administrative in nature and not subject to

A-70
referendum election. The municipality acts in a legislative capacity when adopting a zoning code and a comprehensive plan, but in an administrative capacity
when enacting amendments to the zoning code or rezones and amendments to the comprehensive plan because the municipality then implements the earlier
plans. Also, a rezone is quasi-judicial in character and
thus not subject to a referendum. Finally, under statute the legislature granted to the city council, not the
municipality as a whole, the power to adopt and implement zoning.
In Ruano v. Spellman, 81 Wn.2d at 825 (1973), the
King County Council voted to build a county stadium
and sold bonds to finance the construction. Citizens
filed an initiative to repeal the resolution authorizing
the project, to revoke the bonds to finance it, and to
prohibit spending funds for further development. The
Supreme Court noted that, while the original decision
to build the stadium was legislative, all that remained
was for the county and its agents to execute an already
adopted legislative determination. Under these facts,
the court held only administrative decisions remained
in connection with the stadium project, decisions not
subject to the initiative process.
In State ex rel. Guthrie v. City of Richland, 80 Wn.2d
382, 494 P.2d 990 (1972), the city of Richland adopted
an ordinance that extended its water and sewer system to annexed land and issued bonds to pay for the
extension of the system. Citizens then sought a referendum to overturn the ordinance, but the city clerk refused to validate the petitions for the referendum. The

A-71
Supreme Court denied a writ of mandamus directing
the city to submit the referendum to a vote. The court
held that an ordinance providing for additions, betterments, and extensions to a municipally owned waterworks, financed by revenue bonds, was not subject to a
referendum vote. A statute delegated to the governing
body of the city the authority to construct and finance
a sewer and water works.
In Durocher v. King County, 80 Wn.2d 139 (1972),
the King County Council granted companies an unclassified use permit with conditions for a tract of land.
Thereafter, the council decided to submit the issuance
of the permit to the voters in a referendum. The Supreme Court held the issuance of a use permit to be
administrative primarily because the Washington Constitution and King County Charter delegated the power
to issue the permits to the county council.
In Paget v. Logan, 78 Wn.2d 349, 474 P.2d 247
(1970), the Supreme Court held the selection of a public stadium site constituted a legislative rather than
administrative or executive act. The court emphasized
that a statute declared the acts of locating, financing,
constructing, and operating public stadium facilities to
be for public purposes and another statute conferred
the power of eminent domain on the county to accomplish the public purpose. Significant and inherently
legislative problems revolving about streets, traffic,
parking, public transportation, utilities, and service facilities become necessarily entwined and interrelated
with the choice of any given site. Challengers to
the initiative argued that rendering the stadium site

A-72
selection a legislative rather than an administrative
function would frustrate the efficiency of government
and promote endless debate and indecision with respect to finalizing any chosen site. The court qualified
its ruling by noting that, at some point in time, a proposed stadium project might progress to a point when
only administrative decisions will remain to complete
the project such that any initiative measures concerning site selection would be inappropriate.
In State ex rel. Linn v. Superior Court for King
County, 20 Wn.2d 138, 146 P.2d 543 (1944), the court
adopted the rule that amending a city charter is legislative in character and may be the subject of a referendum. The court, however, denied the proponents of the
initiative a writ directing the county to place the initiative on the ballot since the proponents had not followed the correct process.
In State ex rel. Payne v. City of Spokane, 17 Wn.2d
22, 134 P.2d 950 (1943), the city of Spokane fire chief
sued to compel city commissioners to submit to voters
a proposed initiative to increase the pay of members of
the fire department. The Supreme Court held the fixing of salaries to be a legislative function and subject
to an initiative. The city charter placed the fixing of
salaries under an article devoted to “Administration of
City Affairs.” This classification was not controlling because the courts, not the city, determine the nature of
the task.

A-73
In State ex rel. Pike v. City of Bellingham, 183 Wash.
439 (1935), the Supreme Court held the fixing of salaries of firefighters and police officers to be legislative
in nature. Thus, an initiative could establish those salaries.

B-1
APPENDIX B
SUPERIOR COURT OF THE
STATE OF WASHINGTON
IN AND FOR THE COUNTY OF SPOKANE
GLOBAL NEIGHBORHOOD;
REFUGEE CONNECTIONS
OF SPOKANE; SPOKANE
CHINESE ASSOCIATION;
ASIAN PACIFIC ISLANDER
ASSOCIATION; SPOKANE
CHINESE-AMERICAN
PROGRESSIVES; AND
THE SPOKANE CHAPTER
OF THE NATIONAL
ORGANIZATION OF
WOMEN,

Case No.: 17-2-01621-1
ORDER GRANTING
PLAINTIFFS’ MOTION
FOR DECLARATORY
RELIEF

Plaintiffs,
vs.
RESPECT WASHINGTON;
VICKY DALTON, SPOKANE
COUNTY AUDITOR, IN
HER OFFICAL [sic] CAPACITY; AND THE CITY OF
SPOKANE,
Defendants.
THIS MATTER came before the Court upon the
Plaintiff ’s Motion for Declaratory Judgment, noted
for consideration on August 25, 2017. The Court has
considered Plaintiffs’ Motion and Memorandum in

B-2
Support of Plaintiffs’ Motion, Plaintiffs’ Reply in Support of the Motion for Declaratory Judgment, the declarations and exhibits in Support of Plaintiffs’ Motion
for Preliminary Injunction, Respect Washington’s opposition to Plaintiffs’ Motion for Declaratory Judgment, the Auditor’s response to Plaintiffs’ Motion for
Declaratory Judgment, the City of Spokane’s response
to Plaintiffs’ Motion for Declaratory Judgment, the
parties’ arguments, and all papers and pleadings on
file. The Court now finds as follows:
1.

This matter was brought pursuant to Washington’s Uniform Declaratory Judgments Act,
Chapter 7.24 RCW, and meets the elements
thereof.

2.

A justiciable controversy exists. There is an
actual, present, and existing dispute between
parties with genuine and opposing interests
that are direct and substantial.

3.

Plaintiffs have standing. Plaintiffs fall within
the zone of interests of Proposition 1, and
have demonstrated sufficient injury, and this
case is germane to the purposes of all Plaintiff
organizations. Respect Washington concedes
that Plaintiffs have submitted evidence with
their reply in support of their motion which is
sufficient to show standing Global Neighborhood and Refugee Connections Spokane have
employees that will suffer sufficient injury
and therefore have standing to bring this action on behalf of their members. All Plaintiffs
will suffer organizational harm by being required to divert limited resources to address

B-3
the impacts associated with Proposition 1,
should it pass.
4.

The Court declines to address whether the
Public Importance Exemption to the Standing
Doctrine applies in this matter.

5.

Proposition 1 exceeds the local initiative
power and is invalid. Proposition 1 exceeds
the local initiative power because it is administrative in nature and because it would
change or hinder a pre-existing administrative policy and modify existing directives applicable to the City of Spokane Police
Department and City employees.

6.

Proposition 1 is invalid because it seeks to repeal portions of the City of Spokane Municipal
Code that have been previously rescinded by
the City Council and have otherwise been
amended to make inconsistent with the plain
language of Proposition 1.

7.

Plaintiffs’ claim as to Proposition 1’s consistency with state law is not appropriate for
consideration in a pre-election challenge.

8.

The Court declines to consider whether Proposition 1 is inconsistent with the procedural
requirements of the Spokane Municipal Code.

9.

Respect Washington’s assertion that this case
is barred by the Doctrine of Laches is without
merit because Defendant failed to demonstrate that filing of the case was intentionally
delayed, no evidence was provided that it was
filed to avoid any subsequent appeals, and Respect Washington failed to provide evidence of

B-4
actual quantifiable harm as a result of any delay.
Now, therefore, it is hereby ORDERED that Plaintiffs’ Motion for Declaratory Judgment is GRANTED.
The Court DECLARES that Proposition 1 is invalid.
The Court further DECLARES that the initiative shall
not appear on the November 7, 2017 ballot, and directs
the Auditor not to include it on that ballot. Final judgment shall be entered in favor of Plaintiffs in accordance with this Order.
DATED this 29 day of August, 2017.
/s/ Julie M. McKay
The Honorable Julie M. McKay
Superior Court Judge
Presented by:
/s/ Rick Eichstaedt
Rick Eichstaedt, WSBA #36487
Attorney for Plaintiffs
Approved as to form:
Approved as to form via email.
Richard Stephens, WSBA #21776
Attorney for Respect Washington.
Approved as to form via email.
Dan Catt, WSBA #11606
Attorney for Spokane County Auditor

B-5
Approved as to form via email.
Nathaniel Odle, #39602
Attorney for City of Spokane

C-1
APPENDIX C
THE SUPREME COURT OF WASHINGTON
GLOBAL NEIGHBORHOOD, )
No. 96903-5
et al.,
)
ORDER
)
Respondents,
)
Court of Appeals
v.
)
No. 35528-4-III
)
RESPECT WASHINGTON,
) (Filed Jul. 10, 2019)
Petitioner.
)
Department II of the Court, composed of Chief
Justice Fairhurst and Justices Madsen, Stephens,
González and Yu, considered at its July 9, 2019, Motion
Calendar whether review should be granted pursuant
to RAP 13.4(b) and unanimously agreed that the following order be entered.
IT IS ORDERED:
That the petition for review is denied.
DATED at Olympia, Washington, this 10th day of
July, 2019.
For the Court
/s/ Fairhurst, C.J.
CHIEF JUSTICE

D-1
APPENDIX D
Constitutional Provisions at Issue
First Amendment to the United States Constitution:
Congress shall make no law respecting an establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of
speech, or of the press; or the right of the people peaceably to assemble, and to petition the
government for a redress of grievances.
Section 1 of the Fourteenth Amendment to the United
States Constitution:
No state shall make or enforce any law which
shall abridge the privileges or immunities of
citizens of the United States; nor shall any
state deprive any person of life, liberty, or
property, without due process of law; nor deny
to any person within its jurisdiction the equal
protection of the laws.

E-1
APPENDIX E
Specification Regarding Federal Question
Petitioner raised the First Amendment issue in its
Opposition to Motion for Declaratory Judgment, that
was filed in the Spokane County Superior Court. This
was the only brief Petitioner filed in the Superior Court
which was the first court involved in this proceeding.
The Superior Court did not address the First Amendment-based argument. See Appendix B. The First
Amendment argument was also raised in the Washington Court of Appeals which that Court rejected. See
Appendix A-41 through A-43.

